        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

Beryllium Surface Contamination at
the Y-12 National Security Complex




DOE/IG-0783                       December 2007
                              Department of Energy
                                  Washington, DC 20585
                                    December 1 7 , 2007


MEMORANDUM FOR TI4 SECRETARY

FROM:                    &-
                         Gregory H. Friedman
                         Inspector General

SUBJECT:                INFORMATION: Audit Report on "Beryllium Surface
                        Contamination at the Y- 12 National Security Complex"

INTRODUCTION AND OBJECTIVE

Since the 1950s, beryllium processing has been an important part of the mission of the
Department of Energy's Y- 12 National Security Complex in Oak Ridge, Tennessee. Y-12 has
made widespread use of beryllium in its activities. As a consequence, the Department's
worker safety programs have recognized the possibility that beryllium remains in buildings as
well as on equipment and other surfaces. According to the Department, exposure to beryllium
can cause beryllium sensitization or Chronic Beryllium Disease, defined as an often
debilitating, and sometimes fatal, lung condition.

In accordance with Federal Regulations, the contractor operating Y- 12, BWXT Y-12,
implemented a Chronic Beryllium Disease Prevention Program. This Prevention Program
required postings of beryllium surface contamination warnings in non-beryllium operations
areas when contamination was found to be 0.2 micrograms and above. Further, it required
that hazard assessments be performed when surface sampling established the presence of
beryllium. BWXT's Prevention Program builds upon, and in certain cases, exceeds current
regulatory recluiremcnts for beryllium contamination controls.

In November 2006, the Office of Inspector General rece~vedan allegation that workers at
Y- 12 had not bcen adequately protected from beryllium exposure. In response to the
allegation, we initiated this audit to determine whether BWXT Y-12 had unplemented surface
contamination controls in accordance with its Prevention Program. Our audit included three
facil~t~cs
         where beryllium operations were historically co-located with non-beryllium
operations and focuscd on surface contaminat~onoutside of beryllium operational areas.

RIJSULTS OF AUDIT

Our review found that BWXT Y-12 had not consistently implemented key controls in non-
berylliun~operations areas as required by its Prevention Program. Specifically, when surface
contamination was found outside beryllium operational areas, BWXT Y- 12 had not always:

       Posted signs alerting workers to the potential for beryllium surface contamination;
       and,
       Perfor~nedor documented hazard assessments for beryllium contamination, although
       documented assessments were vital to identifying potential exposure risks.
For example, in 2002, BWXT Y- 12 identified the presence of beryllium in one area at a level
requiring further control actions. However, as of August 2006, BWXT Y-12 had not taken
even the basic step of posting signs to alert workers to the potential risks. 111 April 2007, after
our inquiries, BWXT Y- 12 performed additional sampling that not only confirmed the
presence of berylliun~,but indicated contamination that, in some cases, exceeded 15
niicrograms. 'Phis was 75 times higher than the level at which its Prevention Program
required further controls. This area was posted in May 2007, almost five years after the initial
characterization.

During the course of our review, BWXT Y-12 management pointed out that tlie requirement
to post warnings of contamination outside beryllium operational areas exceeds the
Department's regulations, which do not require postings for such surface contamination. We
agree. In fact, t h ~ sinconsistency was reflective of a gap that we found in the Department's
current regulations. Department regulations do not address surface contamination found
outside confirmed beryllium operational areas. In May 2005, to address this gap, the
Department drafted a technical standard, which reconiniended warning signs when
contamination occurs outside operational areas. As of August 2007, this standard had not
been finalized.

The completion of hazard assessments was an important component of the Preve~ition
Program. Yet, we found instances where surface sampling established the presence of
berylliu~nin non-operational areas and BWXT Y-12 had not performed the required
assessments. This was inconsistent with the Department's implementing guidelines for
beryllium protection progra~ns,wliich identify hazard assessments as the mechanism for
determining and documenting potential worker exposure.

We found that BWXT Y- 12's implementation of its Prevention Program was hampered, in
part, because the contractor did not track recommendations made by its industrial hygienists
to post contaminated areas. BWXT Y-12 also did not have a single repository of beryllium
inforniation that could be used by management and workers to identify contaminated
locations.

As a result of these control weaknesses, tlie Department and BWXT Y-12 may not be doing
all that is possible to minimize the r ~ s kof worker exposure to beryllium in noti-beryllium
operations areas. BWXT Y- 12 management asserted that surface contamination can not be
corrclatcd to airborne beryllium exposures. However, the Department has recognized that
surface contamination may constitute a pathway for worker exposure to beryllium.

During tlie course of this audit, we provided our findings to Department personnel who took
actions to ensure that the areas with surface beryllium contamination were posted. BWXT
Y- 12 nianagelnent infor~iiedus that it is developing a system that will centralize
characterization data and improve the communication of information pertaining to beryllium.
MANAGEMENT COMMENTS

Managcment officials from the Office of Health, Safety and Security (HSS) and the National
Nuclear Sccurity Administration (NNSA) concurred with the audit report I-ecommendations.
HSS officials stated that the requirement to post areas when surface beryllium contamination
occurs in non-operational areas will be addressed during the Fiscal Year 2008 amendment to
Departmental regulations. NNSA stated that it had initiated a number of corrective actions.
The actions taken and planned are generally responsive to the recommendations.

Although NNSA initiated corrective actions, officials expressed disagreement with certain
statements contained in the report. In particular, NNSA stated that Chronic Beryllium
Disease is caused by inhalation of airborne beryllium, wh~chcan not be correlated to surface
contamination. This paralleled the assertions made by BWXT Y-12 during the audit.
Additionally, NNSA officials pointed out that BWXT Y-12's Prevention Program
requirement's for surfacc contam~nat~on  in non-beryllium areas exceed regulatory
recluircmcnts.

We recognize NNSA's position. During the audit, in consultation with Departmental experts,
wc could find no methodology to accurately predict the amount of beryllium that may become
airboriic from berylli~~nisurface contamination. Nevertheless, the Department has taken the
position that surfacc contan~inationis a potential hazard that tnay present an exposure route.
In fact, airborne beryllium was detected while a BWXT Y-12 employee was testing for
berylliu~nsurface conta~ninationin one of the buildings cited i n the report. Although the
amount did not excccd the Department's action level, it clearly demonstrated that surface
contamination can posc a risk to workers.

Further, as ack~iowledgedin the report, Department officials have recognized the risk
associated with surface contamination and, in 2005, drafted a technical standard
reco~nnlendingwarning signs for contamination occurring outside beryllium operational
arcas. At the time of audit, however, the standard had not been finalized. In view of the
Dcpartmcnt's concern for worker health and safety, we concluded that it is prudent that
beryllium monitoring and control programs are fully implemented to minimize worker
exposure.

Management's comments arc included in their entirety in Appendix 3

Attachment

cc: Dcputy Sccrctary
    Undcr Sccrctary of Encrgy
    Administrator, Nat~onalNuclear Security Administration
    Chief of Staff
    Chief I-lealth, Safety and Security Officer
    Manager, Y- 12 Site Office
    Director, Policy and Internal Controls Management, KA-66
REPORT ON BERYLLIUM SURFACE CONTAMINATION AT THE
Y-12 NATIONAL SECURITY COMPLEX


TABLE OF
CONTENTS

   Beryllium Surface Contamination Management

   Oetai Is of Finding ................................................................................. 1

   Recommendations. ............................................................................... .5

   Comments ............................................................................................. 6


   Appendices

   1 . Objective, Scope, and Methodology ................................................9

   2. Related Audit Reports .................................................................... 1 1

   3. Management Comments ................................................................. 12
Implementation of Beryllium Controls
Beryllium         BWXT Y-12, LLC's (BWXT Y-12) actions were not
Contamination     consistent with its Chronic Beryllium Disease Prevention
Management        Program (Prevention Program). In particular, BWXT Y-12
                  had not always posted locations of beryllium contamination
                  that were outside of beryllium operational areas in the three
                  facilities included in our review. These postings would
                  have alerted workers to the potential risks of beryllium
                  exposure. BWXT Y-12 also had not performed or
                  documented the conduct of hazard assessments to
                  communicate potential exposure risks.

                                    Posting Beryllium Areas

                  In August 2002, BWXT Y- 12 collected characterization
                  samples in the East High Bay of Building 9201-5. Of the
                  samplcs collected, half were above the site surface
                  contamination limit with 5 samples showing contamination
                  15 times greater than the limit. We noted, however, that as
                  of August 2006, this area had not been posted as being
                  beryllium contaminated.

                  In April 2007, after our inquiries, BWXT Y-12 performed
                  an additional characterization of the facility and found that
                  5 1 of the 60 samples collected in the East High Bay were
                  above the site limit. Moreover, several samples revealed
                  contamination exceeding 15 micrograms, which is 75 times
                  greater than the level requiring further controls. According
                  to the building operations manager, periodic operations had
                  been ongoing in an adjacent area of the facility for years;
                  however, the East High Bay was not posted as a beryllium
                  area until May 2007, almost five years after the initial
                  characterization.

                  In another case, during a 1998 characterization of Building
                  9808, a BWXT Y-12 industrial hygienist determined that
                  ventilation ducts were contaminated with beryllium and
                  recomnlcndcd that employee access be restricted.
                  However, we found that the area had not been posted with
                  warning signs and that enlployees assigned to Building
                  9808 had access to the beryllium contaminated ductwork.
                  In fact, we observed that employees in the facility had
                  worked in the contaminated area around the ventilation
                  ducts. According to BWXT Y-12, the ductwork outside of
                  the building had been properly labeled, but no postings
                  were made inside the building. During the audit,




Page 1                                                     Details of Finding
         BWXT Y-12 initiated additional sampling to determine the
         extent of contamination in the building. Several samples
         revealed contamination that was above 3 micrograms,
         which is 15 times greater than the level requiring posting.
         The highest reported sample was over 10 micrograms,
         which is 50 times greater than the limit. Subsequent to our
         inquiries, the area around the ductwork was posted as being
         beryllium contaminated.

         Finally, we noted that characterization data from 2004
         indicated the presence of beryllium exceeding the surface
         contamination limit in Building 9202. Specifically, 40
         percent of the samples from the first floor foundry were
         above the site surface contamination limit. Although the
         industrial hygienist had recommended restricted employee
         access, BWXT Y-12 had not posted warning signs in the
         contaminated areas. The area was posted in June 2007
         following discussion of our findings with Department of
         Energy (Department) personnel.

                       Beryllium Hazard Assessments

         In addition, the Department's regulations state that a hazard
         assessment must be performed when characterization
         samples establish the presence of beryllium. The hazard
         assessment is an analysis of the existing condition, medical
         surveillance trends and exposure potential to workers.
         According to BWXT Y-12 management, prior to 2005,
         hazard assessments were conducted but not documented for
         beryllium contamination found outside beryllium
         operational areas. However, we found that since 2005,
         surface sampling had established the presence of beryllium
         in non-operational areas, but BWXT Y-12 had not always
         performed hazard assessments. For example, we noted that
         BWXT Y-12 had not performed documented hazard
         assessments for the previously discussed contamination
         found in areas of Building 9201 -5. In addition, hazard
         assessments for Buildings 9808 and 9202 were not
         con~pleteduntil July 2007. The lack of documentation for
         assessments prior to 2005, as well as, the absence of such
         assessments for more recently found contamination is
         significant since it is important in defining potential
         hazards.




Page 2                                            Details of Finding
Beryllium       During the audit, BWXT Y-12 was unable to provide a
Contamination   definitive reason for not fully implementing its program
Controls        requirements. In responding to a draft of this report,
                however, Department management stated that BWXT Y-12
                had not implemented all procedures required by the
                Prevention Program for surface contamination, such as
                postings and conducting hazard assessments, because of
                higher priority concerns about active beryllium operations
                areas. We concluded that the contractor had not posted
                contaminated areas because it had not fully analyzed
                characterization sample results as required by its
                Prevention Program to detennine the extent of
                contamination. For example, we determined that BWXT
                Y- 12 had not statistically analyzed characterization data
                collected for Buildings 9201-5, 9808 and 9202. Such
                analysis would have disclosed the extent and levels of
                surface contamination in each of these locations.

                BWXT Y-12 management also pointed out that its
                requirement to post areas of surface contamination outside
                operational areas exceeds the Department's regulations.
                We recognize that BWXT Y-12's Prevention Program
                exceeds regulatory requirements; in fact, they address a gap
                in the Department's existing regulations. Specifically, the
                regulations do not address posting surface contamination
                found outside beryllium operational areas; rather it focuses
                on surface contamination within beryllium operational
                areas. However, Department guidance recognizes that
                surface contamination, regardless of location, may present
                a route of exposure other than through airborne
                transmission. The guide includes the following example: a
                worker with beryllium contamination on their sleeve could
                brush the sleeve against their nose, resulting in an inhaled
                dose that could not be captured in a breathing zone sample.
                Further, we noted that in May 2005, the Department drafted
                a technical standard to address this regulation gap by
                recommending warning signs for contamination occurring
                outside beryllium operational areas. As of August 2007,
                this standard had not been finaliled.

                Although the requirement to post areas of surface
                contamination outside operational areas exceeds the
                Department's regulations, it should nevertheless have been
                implemented since it addresses a gap in the regulation and
                was part of BWXT Y- 12's approved Prevention Program.



Page 3                                                  Details of Finding
         Implementing this requirement is significant since there is
         documented evidence of a potential hazard associated with
         surface contamination outside operational areas. In fact,
         during the audit, a BWXT Y-12 employee was found to
         have received a measurable exposure to beryllium while
         testing for beryllium surface contamination in one of the
         buildings cited in the report. While the amount did not
         exceed the Department's action level, it clearly
         demonstrates that surface contamination can pose a risk to
         workers.

                    Perfomlance of Hazard Assessments

         Regarding hazard assessments, BWXT Y- 12 management
         stated that assessments had been conducted but that only
         those performed after 2005 were required by their
         procedures to be documented. We noted, however, that
         BWXT Y-12's lack of documentation was not consistent
         with the Department's 2001 implementing guidelines,
         which required that hazard assessments be conducted to
         determine and document potential worker exposure.
         BWXT Y-12 was unable to provide a reason for not
         conducting assessments of more recently identified surface
         contamination. However, the Department indicated that it
         is taking action to complete the required hazard
         assessments.

         In responding to a draft of this report, Department officials
         stated that resources were deployed and hazard assessments
         conducted in the areas of highest risk, which are active
         beryllium operations. Legacy contamination areas were of
         secondary concern given the relatively low risk. During the
         audit we noted, however, that the areas containing active
         beryllium operations had been assessed and established as
         beryllium operational areas as early as the late 1990s.
         Thus, in our opinion, the legacy beryllium areas discussed
         in the report should have been a higher priority since
         employees in those areas were not aware of the potential
         risks of exposure, trained in the hazards of beryllium, or
         protected by controls to prevent beryllium exposure.




Page 4                                            Details of Finding
                                   Enhancement of Controls

                  BWXT Y- 12's implementation of its Prevention Program
                  was also hampered because it did not track
                  recommendations made by its industrial hygienists. As
                  previously discussed, BWXT Y-12 had not implemented
                  the hygienists' recommendations to post contaminated
                  areas. BWXT Y-12 did not have a system to assign
                  responsibility for addressing hygienists' recommendations
                  or to track corrective actions.

                  Furthermore, we noted that BWXT Y-12 did not have a
                  single repository of beryllium information that can be used
                  by management and workers to identify contaminated
                  locations. For example, characterization information was
                  kept in numerous locations and on several separate
                  databases. In fact, we provided compiled data to BWXT
                  Y-12 and the National Nuclear Security Administration
                  officials, which they had not assembled. During the audit,
                  BWXT Y-12 informed us that they are developing a system
                  that will centralize characterization data and improve the
                  communication of information pertaining to beryllium.

Beryllium         The Department and BWXT Y-12 may not be minimizing
Contamination     the risk of worker exposure to berylliun~. Specifically, the
Effects           Department's guidance recognizes that surface
                  contamination may constitute a pathway for worker
                  exposure to beryllium. However, neither the Department's
                  regulations nor BWXT Y- 12's implementation of its
                  Prevention Program adequately addressed the potential
                  hazards of such surface contamination. This is significant
                  since research has shown that once exposed to beryllium,
                  an individual carries a lifelong risk of developing beryllium
                  sensitization or Chronic Beryllium Disease, even if the
                  exposure amount was small or if the individual is no longer
                  exposed.


RECOMMENDATIONS   We recommend that the Chief Health, Safety and Security
                  Officer revise the Department's regulations to require
                  controls including posting areas when surface beryllium
                  contamination occurs in non-operational areas.

                  We further recommend that the Manager, Y- 12 Site Office
                  direct B WXT Y- 12 to:



Page 5                                                    Recornmendations
                 1. Fully implement the procedures within the Chronic
                    Beryllium Disease Prevention Program including
                    the statistical analyses of characterization data,
                    posting warning signs in beryllium contaminated
                    areas and performing and documenting hazard
                    assessments for beryllium contamination;

                2. Implement a system for tracking Industrial Hygiene
                   recommendations to ensure they are addressed
                   timely; and,

                3. Ensure that the beryllium information database
                   currently under development is completed and
                   maintained.

MANAGEMENT   Both the Office of Health, Safety and Security (HSS) and
COMMENTS     the National Nuclear Security Administration (NNSA)
             concurred with the audit report recommendations. HSS
             officials stated that the requirement to post areas when
             surface beryllium contamination occurs in non-operational
             areas will be addressed during the Fiscal Year 2008
             amendment to Department regulations. As acknowledged
             in the report, NNSA initiated a number of corrective
             actions during the audit, including posting warning signs in
             beryllium contaminated areas. A number of other actions
             have been planned to address the audit recommendations
             and are discussed in NNSA's comnlents which are included
             in Appendix 3.

             However, NNSA believed the report contained certain
             inaccuracies. Specifically, NNSA stated that the report (1)
             inaccurately correlated surface contamination to airborne
             beryllium expose and health effects; (2) did not consider air
             sampling as part of Y-12's documented hazard assessment;
             and, (3) overstated the health effect of Chronic Beryllium
             Disease being fatal. NNSA also commented that, in the
             absence of regulatory guidance, the Y- 12 contractor had a
             conservative internal limit for beryllium surface
             contamination outside of beryllium operational areas and
             that failure to implement an additional self-imposed limit
             does not equal failure to implement a key control.

AUDITOR      The actions taken and planned are responsive to the audit
COMMENTS     report recommendations. However, for the reasons
             provided below, we disagree with NNSA's assertions
             regarding the accuracy of certain statements contained in
             the report.


Page 6                                                        Comments
                 Correlation between Surface Contamination
                           and Airborne Exposure

         We recognize that there is no methodology to accurately
         predict the amount of surface beryllium that may become
         airborne. Nevertheless, the potential risk associated with
         surface contamination is a reality as evidenced by an
         occurrence at Y-12 in April 2007. In this case, a BWXT Y-
          12 employee had a measurable exposure to beryllium while
         testing for beryllium surface contamination in one of the
         buildings cited in the report. While the amount did not
         exceed the Department's action level, it clearly
         demonstrates that surface contamination can pose a risk to
         workers.

         Further, as stated in the report, Department guidance
         recognizes that surface contamination, regardless of
         location, may present a route of exposure other than
         through airborne transmission. In fact, in order to
         minimize potential exposure, the Department requires
         beryllium workers to change out of work clothes and to
         shower before leaving the plant. These steps significantly
         reduce the movement of beryllium from the workplace and
         ensure that the duration of beryllium exposure does not
         extend beyond the work shift and, thus, protect workers and
         their families from off-site exposures.

                      Documented Hazard Assessments

         As discussed in the report, documented hazard assessments
         were not provided for all of the areas included in the report.
         Management contends that air sampling was conducted in
         each of the areas of concern and thus constituted the
         conduct of a hazard assessment. However, area specific air
         sampling data was not provided to the audit team when
         hazard assessments were requested. In addition, while we
         agree that air sampling is a key element of a hazard
         assessment, according to Department guidance, other
         factors should be considered. For example, employers
         should ensure that hazard assessments take into account
         surface contamination and other routes of exposure.




Page 7                                                    Comments
                Health Effects of Chronic Beryllium Disease

         The definition cited in the report was obtained directly
         from the Federal Register. In it, the Department defines
         Chronic Beryllium Disease as, "a chronic, often
         debilitating, and sometimes fatal, lung condition."

         We recognize, as stated in the report, that BWXT Y-12's
         written procedures regarding postings in non-operational
         areas exceed the requirements in the regulations. However,
         because the Department has acknowledged a potential risk
         associated with surface contamination in non-operational
         areas, any control designed to alert and protect workers is
         important and should be implemented. Further,
         Department regulations require that all activities must be
         conducted in compliance with an employer's Prevention
         Program. Since the requirement to post warnings in non-
         operational areas had been agreed to in the contractor's
         approved Prevention Program, it should have been
         implemented. Further, we noted surface contamination in
         several areas exceeded the regulatory limit of three
         micrograms where personal protective equipment would
         have been required, had the level of contamination been
         found in a beryllium operations area.




Page 8                                                  Comments
Appendix 1

OBJECT'IVE    The objec:tive of this audit was to deternline whether
              BWXT Y'-12, LLC (BWXT Y-12) had implemented
              surface cc~ntaminationcontrols in accordance with its
              Chronic E3eryllium Disease Prevention Program.

SCOPE         The audit was performed between December 2006 and
              Novembe:r 2007. We conducted work at the Y-12 National
              Security (zomplex (Y-12) located in Oak Ridge, Tennessee
              and the Nlational Nuclear Security Administration (IVIVSA)
              Headquar-ters in Washington, DC. Our efforts focused on
              berylli urn1 contamination found outside of beryllium
              operation a1 areas.

METHODOLOGY            lplish the audit objective, we:

                       eviewed laws, regulations, contractual
                       quirements, and policies and procedures relevant
                        the management of beryllium contamination;

                       etennined if baseline characterizations had been
                       ltablished and analyzed for Buildings 9201 -5,
                       308, and 9202;

                       nalyzed Y-12 documentation relating to beryllium
                       oling, medical surveillance, and procurement;

                       3ured numerous facilities at Y- 12 to observe
                       :ryllium area postings; and,

                       eld discussions with officials from the NNSA
                       eadquarters, Y-12 Site Office, and BWXT Y- 12
                       mcerning the management of beryllium
                       mtamination.

              We condl~ c t e dthis performance audit in accordance with
              generally accepted Government auditing standards. Those
              standards require that we plan and perform the audit to
              obtain su fficient, appropriate evidence to provide a
              reasonabl e basis for our findings and conclusions based on
              our audit objectives. We believe that the evidence obtained
              provides a reasonable basis for our findings and
              conclusioins based on our audit objective. The audit
              included tests of controls and compliance with laws and
              regulatioi1s related to beryllium operations. Because our
              revlew w as limited, it would not necessarily have disclosed
              all intern;31 control deficiencies that may have existed at the
              time of 01ur audit. We did not rely on automated data



Page 9                             Objective, Scope, and Methodology
Appendix I(continued)

                   processing equipment to accomplish our audit objective.
                   Finally, we assessed NNSA's compliance with the
                   Government Performance and Results Act of 1993.
                   Measures were in place regarding environment, safety and
                   health issues that would apply to beryllium. We held an
                   exit conference with Management on December 6,2007.




Page 10                               Objective, Scope, and Methodology
Appendix 2

                          RELATED AUDIT REPORTS

     The report on Betyllium Controls at the Oak Ridge National Lahorarory
     (DOEIIG-0737, September 2006) found that the Oak Ridge National Laboratory
     did not properly manage activities related to beryllium contaminated equipment in
     Building 9201 -2, which is located at the Y-12 National Security Complex. In
     particular, beryllium contaminated equipment was transferred to non-beryllium
     areas; employees working with contaminated equipment were not fully identified
     and notified; transferred equipment was not labeled appropriately; and, the
     building was not posted as a potential contamination area.

     The report on Implementution of the Department of Energy's Bevyllium-
     Associated Worker Registty (DOEIIG-0726, April 2006), showed that the
     Department had not: maintained data completeness or accuracy in the worker
     registry; used the registry to evaluate health effects of beryllium exposure; nor
     used the registry as envisioned to examine the prevalence of beryllium disease.
     Thus, the audit results showed that program implementation did not meet
     expectations.

     The report on Betyllium Oxide Operations ut the Y-I2 N~rtiotzalSecurity Complex
     (DOEIIG-0595, April 2003), disclosed a number of inefficiencies in Y-12's
     beryllium oxide operations. Specifically, operations were spread across the Y-12
     site, and in some cases, were co-located with other Y-12 operations. In addition,
     manufacturing equipment and facilities were outdated, which increased
     manufacturing time and costs, and exacerbated health hazards associated with the
     use of beryllium.




Page 11                                                         Related Audit Reports
Appendix 3



                                                   Department of Energy
                                           Nat~onalNuclear Secur~tyAdministratton
                                                     W a s h ~ n g t o ~D(;
                                                                         i 20585
                                                       O c t o b e r 2 7 , LOO7




          b11;MOI<AUL~IIM ITOR                 ( ~ c o r g cW Collard
                                               Assistant Ins~?cctor<;encral
                                                   Ibl- Performance .Audits

                                                Michael C. Kane

                                                   lor Managcmcnt and Administration

                                               ('ommcnts to Draft Report o n Y-12 Rcrylllum Surlilce
                                               Contamination; A07Y.l.040; I LlKMS N o 2000-3 1002


          l'llc National huclcal- Security Administration ( N N S A ) a p ~ r e c i a t c sthe opportl~nityto
          r-c\ i c n tlic 111sl)cc101-    <;cnc~.al's( ICi) drali report. "Audit on B c r y l I i ~ ~Surlacr.
                                                                                                     m
          (.'ontamiriation at tlic Y - I? National Security Complex." N'c ~ ~ n d c r s t a nthat        d the IG
          contluctc~lthis audit bccausc o f an allegation recei\.ed in No\.embcr 7 0 0 0 . that Y-12
          \vorlic~-s\\.c~-c       ]lot adecl~latelyprotected Srum bcrylli~uiicxposurc and that the IG \\anted
          to d c t c r ~ ~ ~il's~u-Sacc
                                 inc        contaniination controls were in accordance with Y-12's
          p r c \ , c n t i o ~prograii.
                                ~

          NNS.4 ~ ~ n d c r s t a n dthats allegations o f r n i s ~ ~ ~ a n a g halards
                                                                                  ing       mllst be I-csol\,ctland \\lien
          those ;~llcgationslocus on bcrylli~1111             and contamination thc concerns Sor salkty rnllst be
          c \ a ~ ~ ~ i ncarcli~liy.
                             etl         In the casc o r a l l y allcgation made ahout Y-I2 and bcrylli~lmthat
          rcsul~cdin 1111sreport. \\;c helie\-e that the complainant did not undcrst:~nd sonlc basic
          i s s ~ ~ rcl;itcd
                     cs          to 11cryllium anti they may have been carried o\.er to the dl-ali report. Most
          spc'cilically. the rcpolt gives the impression that exposure to surtilce contamination ol'
          I > c r y l l i ~ can
                            ~ n ~ cause b e r y l l i ~ mse~~sitization
                                                          ~           o r ('lironic B c r y l l i ~ ~ Discasc.
                                                                                                      m        111 filct,
          C'lironic Bcl-yllium Disease is caused by i n l i a l a ~ ~ oonf a i r b o m c beryllium and should not
          I)c corrclatcd to surfacc contamination.

          LVc hclievc thal there are s o m e ~naccuracicsin the rcport and arc pro\ iding comnrcnts in
          thc li)llo\\.ing areas:

                   I t is inaccurate to correlate surfilcc contamini~tion10 ;~irborncbcrylli~lmcxposurc
          i~ncllic;~ltlic'ficts.
                    Ilic rcl>ort docs not consider air sampling that \\,as concluctcd as part o f 1'-12's
          ~ i o c u m c ~ ~Iialar-tl
                             lcd     assessment.
                  'l'hc rcport is overstating the hcaltli eflect o f Chronic Beryllium Iliscasc being fatal.




Page 12                                                                                          Management Comments
Appendix 3 (continued)




                  'l'lic Y-12 contractor has a conscr\,a~i\einternal limit li)r bcrylli~lms ~ ~ r f : ~ c c
          conl;lniinalion. in rhc absence of rcglllatory limits, oulside ol~herylliu~li    operational ;Ireas.
           I:ailurc lo implcmcnl an additional .sc~lf~rrr~j~osc~(l
                                                               l i m i ~does not cqual f(li1rri-c.l o iirrj~lc~r~tc~r~l
          r / Acl. c,o~/f/.ol.


          SNSA I,cl~c\csl l i ; ~ ttlic ~scportis technically inaccuralc in thal i t makes rclcl-crrccs alltl
          ;issoci;ltions I,el\\ ccn b c r y l l i ~ ~sul-lice
                                                         n~      contamination anti llie potcnllal for pcrsonncl
          tslx)su~-c       to ;rirbornc bcryll~umand (lic associared health risks. Surface sampling is ;I
          clualitnti\c indicator ofliousckccl,ing and can not he used lo rnras~rl-co~'~>rctlict                    airhornc
          conccn~l-ationsof beryllium or asscss potcntinl licalrli risks. A n ) ~'clkrencc'in the rcporl,
          si~chas in the first ~p;rragr;rpli,Inlroduct~onand Ohjccti\.c section, regal-(ling "cxpos~ircto
          I ) e ~ . y l l i ~c;u~sing
                              ~ ~ n h c r y l l i ~ ~sensili/ntion
                                                     m             or Chronic Rcryllium Discnsc" s l i o ~ ~ hc     ld
          rcslatcd to indic;rtc that "cxposurc lo airborne he)-ylliummay cause bcrylli~~m
          sensit~v;~l~on        or ('lironic Herylli~lmDiscasc." ('hronic Rcl-yllium [)isease is ca~~scrl              Ipy
          inhalati011 ol'uishor~rcbcl-ylli~~m,           \vh~cllcar1 1101 I)c c o ~ ~ c l a r ctod surfacc conl;rrnina~io~i.

           I'hc statement I-egal-ding." ~ l i r o ~ r Beryllium
                                                         ic           Discasc bc~ligoften dchilirating and
          sonlclimc Iit;rl" is ;in ovcrstatcment of health risks gi\,cn tlic latcst rcscarcli on \\,o~-kcrs
          Ilia1 ~>a~tici]>atc    in ;I ~iicdic;~lscrccning program such as the HWX-I' Y- 12 1>1-(~gr;~ni.    [)uc
          to early tliagnosis and treatment pro\.ided by meclical scrccning. it 1s not anlicil~alctllllal
          ('111-onicUcrylli~~m         L)isc;lsc will bc fr~lallo any HWX'I' Y-1 7 pcrso~lncl. :\rldition;rlly. 1t1c
          lalest resc;~rcliindicates that rlicrc is likely a dose response relationship \\.it11 regarcl to
          I~cr)lli~rm  exposure and hcaltli cfli-cts ('or indivitlunls that do 1101 lia\,c a genetic marker
          rh;~t~ ~ r ~ l i s l ) orhcm
                                   s c s lo bcrylli~~m   scnsili\.ity and potential Chronic Hcrylli~~m  1)iscasc.

          l'llc 13crylli~1m    ('on1;rmination Efli-cts scction of thc rcporl is not lcclinically accur-ate in
          (hat i t m;rkes ;in association I>e~\\.een       herylliu~nsurSacc conlamination ant1 airl~ol-nc
          c s ~ ~ o s u ~ - c ~ ~ ~ health
                                    t ) ~ c ~ cffccts.
                                              i t i ; i l We recornmend rc\+,ritingthe Beryllium ('ontamination
          hl'l'ccts scclio~ra s follo\\s: "The Department anrl HM'NI' Y-1 Z miry not he lnirlntai~~ing
          cl'li.ct~\eIrousekecl>ing and co~rta~ili~liitio~i      control practices in I c g a c ~I,> c ~ - b l l i ~
                                                                                                                   ;)I-cas.
                                                                                                                     ~m
          I.cgi~c;hcryllil~msurfiicc con~,iniinationslio~rldbc maintained ar a Ic\,cl as lo\\. ;is
          pr;~clicalbut i l l no illstance shoulti il reach a lei el that res~rllsin airborne I>erylli~rm11s
          mc;rsu~-cdby pcrsolial ant1 air arca s;r~i~pling."

          IFaiIi~rc10 POSI 111-C;IS o/'leg:~eysllrfircc co~ilanli~lation ;rbo\.c ;I self-iml,oscti I1oi1sckceping
          lin1it docs not rise lo tlic Ic\ el of "not consistently iml~lcmcntingkcy controls." 'flicrc IS
          no ~ . c g ~ ~ l a tli~nit
                               o ~ . yfor legacy hcrylli~lmsurface contamination outside of a I > c ~ - y l l i ~ ~ m
          ol>cr;rtlolial arcir. l3M'X-I' \r.- 12 self-imposed ;I \ cry conscr\.:itivc internal housckccping
          linrlt. No1 consislcntly implementing a self-iniposctl limit docs not equate to "frlilul.c to
          1nr1,lemcnt n kc) control." U'c ~rccommcrid~ . c ~ i iilig o \ the \\ol.rl "key" l i o n tlic ~-cl,ort.

          I'crson;~l ; I I I - sampling (lala. n liicli is the only recogni/ed metlrotl to asscss 1,ersonnel
          ~ Y P O S L I I - ' . \ \ ; I S 1101 co~is~(Ici-e~l
                                                         i l l tlie
                                                           report. 'l'li~sdata. along \\.it11 area air saml>llng,arc
          key clcmcnts ol'a Iia/ilrtl asscssnrcnt. While the auditor \\as looliing for a coml,lctctl
          ha/al.tl assessment tiwnl. the ~rcportsliould notc that air s:r~npling\\-as corld~ictcdin c;tcli
          ol~llicareas ofconcc~-11       slid tIi;rt tlic for~ii;rli/cdprocess for clocumcntir~gthcsc




Page 13                                                                                          Management Comments
Appendix 3 (continued)




          iIsscssmcnts \\as insrirl~tedby BWXT Y-17in 7005 ;IS pu.1 ol'ils(('11sonic 13c1.ylli1111l
          1)iscasc I'rc\,cnrion I'rograni. 'fliis sampling documents cxposu~-cLo o or kc^-s 2111tl tlocs
          constitulc ~ l i ccanducr of a hazard asscssnlcnt.

          M'itli regartl lo ~ h sla\cmcnt
                                  c                "BLi'X'I' \'-I2 was unable to p r o \ , ~ d dcfiniti\,c
                                                                                               c           reason Sol-
          not li~llyimplcmc~llingil's prvgrarn rcq~~ircmcnrs.             B\I:X'T' Y-I 7 Jlanagcnlcnt did discuss
          rllar a n d in ;lccortlance \ \ i l l 1 I 0 C'FII 850, resources \\ere deployed and I i a ~ a r d
          asscssmc~ltsc o n d ~ ~ c t cind tllc arcas of llighcst risk \\ hich are acti\;c beryllium opcratio~ls.
          1,cgacy con(arni1ialion awas ere ofsccolldary co11cc1-11              g i \ w the relalively lo\\, risk.

          In lllc co\ cr nicmorandu~ii,i r should cad, "BWXI- Y-1 7 had not ~ l \ 5 a y sp a s ~ c dslgns
          ;~lcrling\\orkcrs lo rhc polcnli;~lfor bcrylli~~ni        surface conlaminarion" \,s. "l)ostt.cl signs
          ,rlcrting \\orkcrs lo the ~ ~ o t c n t i for
                                                      a l cxl~osurc."Again, surSacc con[amirlario~ican not be
          co~.r.clatetllo i~irbomcbcryllill~nexposure or IicaIt11 rsishs. Fcll~ally.[lie scntcllcc. "I3\I'S'P
          ) ' -17 1111t1 1101 ill\\ ilys pcrli~rrnedor doculnentcd hazard asscssnlcnts for h c r y l l i ~ ~ n l
          conraminalion ;~lrliouglidocumented assessment \\:as \,iral to conilnunication of cxposusc
          I-isks." is ~iiislc;~clin~.     .Ail- sampling, which is Ilic ori~narycolnponcnt ol'a hai.ard
          assessmen(. \+asconducted in each arca ofconccrli noted in rlie repoll.

          'I'llc fi)llo\\ ing corrccti\,c aclions arc taking place in relation to the rcconimc~idario~~s.               111
          tl~cr.Industrial I lygicnisrs from tllc Officc of Ilcnlrll. Safely ancl Security ;\lid NKSA
          I l c ; ~ t l q ~ ~ a ~lia\.e
                                   - ~ c sr.e\
                                           s ie\r.etl rlie corrccti\:c actions ant1 bclic\c thar rlie acrions \\,ill li~lly
          atltlrcss lllc rcco~nmc~ltlalio~ls            li.o~ntlir I>~.aliKeporl. 'l'llcsc corrccri\.c acrions li;~\-c
          ~III-catly    hccn cnlcrcd illto tlic BWXT Y-17 Corrccri\.c Actions Planning System and \ \ I I I
          ix rrackcd rllro~rghro closure.

          i\'c sl~l)port~ l l actions
                              r       rhat I3WX.f Y-12 has ~~nplcmcntctl
                                                                      in rclar~onlo tllc
          1.ccor111ncndarions:

           1.       I.ull!. implcmc~lr111cpl-occd~lrcswirllin tlic Chronic H c r y l l i ~ ~1)iscasc
                                                                                             ~n      l'rc\ cntion
          I'~-ogri~rn  including the staristical analysis of cllaraclcri/;~tion data, posting n a m i n g signs
          In I)cs\ Ilium conramirlatcd areas and perfomling and docu~llcnti~lg        hazard asscsslnenls for
          I)c1-!4li11mcoml~oc~ntls.

          Actio~is.
                     Incrcasc the li-ccl~~cncy      ol'bcryllium Area Validations kom a~irlllal10 sc~ili-annual
          ,111cl rccluirc li~lc~ n a ~ l a g c ~ nccon ~
                                                       t ~ c u n ~ cthar
                                                                     ~ i c the
                                                                           c \.alitlation is accul-ate. Sratus:
          ~~olll~>lcrc.
                     Re-cllaracleri/e tlic Building 9202 F o ~ o t l r yand disposition ally samplcs
          0,2ug.'IOOc1n2in accorda~ice\\it11 I11 procedurts. Status: ('o~l~plctc.
                     I'osl 13uilcIing 0808 in accordance \\:it11 IH P~.occtlu~-cs.          Status: ('oml)letc.
                     Issue ;I Sli~ntlrngOrtler lo slrcnglhcn FS&l I Keq~~irelncnrs              k)r-;ill \\ ork acti\.ity i l l
          13~1lltling   0201 - 5 , Slalus: ('omplcre.
                     Dc\clop iuntl cornl>lelcrrli-cslier [raining h r I I I Sraff on rhe si~slirceherylli~rm
          cllaractcri/alion process ant1 rrqc~iremrntsto conduel ant1 documcrlr Ii~i/ard., ~. s. ~..~. s s n l c r l r s
          in accortlancc \\ ill1 Y73-201 H\VS'I \'-I7 CBDI'P Manual. Sr;rr~~s:                   C'omplcrc.




Page 14                                                                                              Management Comments
Appendix 3 (continued)




                    Scarrli databases ancl capture all surface conrariiination ~scsults0.2 L I ~ IOOcm2   /
          (1908-present). 'I'he purpose of this action is to adtlrcss potenrial legacy surl'dcc
          contamination in accordance \vi~lithe most recent \,ersion o f ~ l i e13WXI Y- 12 (-'BDPP.
          Statlls: ('ornl>lete.
                    1:slahlish a s\istcrn to track the dislIosition of all surface c o ~ i t a m i n a t ~ 1.esu1ts
                                                                                                            o~i
           -.0.2 I I I ~OOcm2 an11 tiocumcnl the decision maki~lgprocess \ ia the 1iar:il-tl asscss~ncnt
          requirccl i l l 1'73-20 I . Status: 1)uc 1 1,15/07



          2.       Iml>lcn~cnta system k ) ~t~xcking
                                             -      111 recommentlalion:. to cnslll-c they arc
          atl(lrcssetl t ~ ~ n c l y .

                  Action. li5tahlish and implement ;r systcm to [I-nckI l l rcco~nmcnd;~tic,ns
                                                                                            to line
          Illunageliicnl Slatus: L)ilc 12 15:07.

          3.    1ins~r1.c thal Ilic hcsyllillm infol-mation database c~ri-I-cntlyi~ntlcstle\.clopnlcnt is
          coml~lctctlant1 i i ~ a i ~ ~ t a i n c d .




          ! \ ~ ; I I INNS/\
                       ~.    a~psccialcsthe oppol-[unity to rcvicii this draft report. Slio~ilcl~ O L Ilin\,c
          ;III! clncstions a h o i ~
                                   this
                                     ~ response. please cont;lct Kicliard Spcidcl. Dil-ccto~-.I'olicy and
          lnlcrnal ('ontsols k,l;i~ingcmc~it.

          cc:      I'ccl Sherry, Manager, Y- 12 Site Oflice
                  [:rank Kusso, Selllor. 12di.1sor.I:n\,iron~iient.Safely and Health
                  I)a\'id Hoyd. Senior Procuscmcnt I:sccuti\ c
                  Ki~rcnRoal.dnian. [)irt.ctor. Scr\ icc ('enter




Page 15                                                                                         Management Comments
Appendix 3 (continued)




                                                   Department of Energy
                                                        v ! , i s t r ~ r ~ y r ~ ~ ~ ? ,iC58i


                                                               October 5. 2007
                                                                                         !! i                      27
          \II.I\lOI<ANI)I . M ]:OR CiRE(;OKY [ [ . I~RIL<I)~lAN
                                    INSPE('T0R GENERAL                                       -
                                                           z                                             s., ,,-   /-
                                                                                                                    -
          [:'ROM:                          GLEN& S ~ ? O D O & ~ K Y                 ,,--I           -
                                           ( ' W ~ F1 I ~ @ 2 f i i ,S A - @ f AKD
                                                                                 ~ S E C U R ~0I:I:IC't~K
                                                                                                  ~~'
                                           O ~ ' I ; I T - E ~I Ik.4L'I'I
                                                                 I'       1. SAFE7')' AND SF('I.:KII'\'




          'l'lle Ol'licc ol' I Icalth. S a k f y and Security (HSS) has    ie\\ ed rhe sul>lcct d ~ . ; ~;iucIrt
                                                                                                          li I - ~ ~ O I . I
          ~ ~ ' o \ . i dbcyd rhc Inspector Gcncl-al's Oflice (IG) o n Scptclnhcr 20. 2007. Uclo\\. is rhc r.csponsc
          10 ~ l l clillclillg and rccom~ncntlafiorl;itltlrcsscd lo HSS.




          \\!c ~-ccornn~cn(l t h ; ~lllc
                                      ~ 1lcp;u-rmcnr ol'1:llcrgy. CI~icl'Heslth.Safely ant1 Sce~~l-iry
                                                                                                    Ol'licct. I-c\.isc
          rhc Ucp;~rtlllcllr'sscglrlatious to rcclu~rccolltrols including posting :u.eas \\,hen surl;~ccb c ~ - y l l ~ ~ l l n
          eolltalllill;~llonOeeLIrS Ill 11011-0per;l~io11a~
                                                          3rClS.



          ( 'o~lcul-:
                    ' l ~ r l c10       CI:R 850 "Chronic Beryllium Discasc 1'1-orcctionI'rogs;~m" (Rulc) \\.as
          ~ ~ ~ r l ~ l i ass h ac dIinal ~.ulcin rhe 1;ecieral [ieyisrer on [)cccmhcr 1000. Slncc tllaf I I I I I ~ t-iSS.       has
          hccn \\ orkillg \\ it11 all of its stakchol(icrs to cllaractcrizc a nunlher o f i s s ~ ~ ~)o.;cd
                                                                                                         es           h\ I I I C Kulc
          a ~ h;ls    ~ dpublisllcd a numbel- of technical clarifications of the Rulc. I ISS 112s scllcdulccl the
          clc\clol~rllentol';un amcnclmcnt rn rhc Rule for F\' 7008 10 address tllosc ~ s s u c sant1 fo~-rn;\l~/c
          tllclsc (ccl~l~ical        cl;lrrlications. During tllc process of developing a n ~ c ~ l ~ l ~ l 10l c (Ilc
                                                                                                                  l l ~ sRulc, l lSS
          \ \ - i l l :~dtircsstllc I(;'s sccolnrncndatio11 regarding the posting o1'arc;rs \\he11sul.lilcc he~.yllium
          conlamin;~t~orl           occurs in non-ol~crat~or~al    arcas.

          I I' ~ ) L II;I\.c
                     I       ;111yq~~estiolls.
                                            you 11l;lye0111;~ct
                                                             me at (301 ) 00.7--7777 or Ila\ c. a ~ l l e r n l ~of'
                                                                                                                 c ~your
                                                                                                                     .   staff
          conlac1 I'alricla LVortlli~lgtonat (301 ) 003-5020.




                                                      @'                                         I




Page 16                                                                    Objective, Scope, and Methodology
                                                                    IG Report No. DOEJIG-0783


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the readerd?

4. What additional actions could the Office of lnspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (lG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http:llwww.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
